11
CONCLUSION
Petitioner Alan Singer, therefore, requests that this Court declare the imposition
of attorney’s fees by the Arizona Supreme Court is void; and that the dismissal of Respondent Mondex Corporation be reversed.
Respectfully submitted,

c<s~
Alan Singer, Petitioner/In Pro Se
4825 Highway 95, Suite 2-120
Fort Mohave, Arizona 86426
(928) 377-4508
E-mail: alansinger7@gmail.com

Dated: May 1, 2020

FILED BHC•'it

T,ME—

JUN 0 g 2018

App. 1

4naw.
IN THE SUPERIOR COURT OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MOHAVE
HONORABLE CHARLES W. GURTLER, JR., JUDGE
DIVISION I - BULLHEAD CITY
DATE: JUNE 8, 2018

*ks

COURT ORDER
ALAN SINGER,
NO. CV-2018-4018
Plaintiff,
v.
MONDEX CORPORATION, a Canadian
corporation; et ah,
Defendant.
The Court has reviewed the Response to the Motion for Reconsideration. The parties
present a very interesting issue here. On the one hand, in the matter of In re Consolidated Zicam
Products Liability Cases v. Zensano, Inc.. 212 Ariz. 85, 127 P.3d 903 (App.Div.l 2006) the
issue presented was whether there was in personam jurisdiction over the defendants. The Court
of Appeals unequivocally referenced at two specific points that the Superior Court did not err in
granting the defendant’s Motion to Dismiss for lack of in personam jurisdiction and dismissing
the complaint with prejudice. Zicam, 212 Ariz. at 88 and 92.
Rule 41(b), A.R.C.P. specifies:
Unless a dismissal order states otherwise, a dismissal under this Rule 41(b) and
any dismissal not under this rule - except one for lack of jurisdiction, improper
venue, or failure to join a party under Rule 19 - operates as an adjudication on the
merits.
Rule 41(b), A.R.C.P.
i

!

:

App. 2

The above language is actually susceptible to two different interpretations. One
interpretation would be entirely inconsistent with the ruling in Zicam. The Court, therefore,
addresses both interpretations.
In the first interpretation there are three (3) exceptions to the rule that an involuntary
dismissal is an adjudication on the merits. One of those exceptions is a dismissal for lack of
jurisdiction. Therefore, a dismissal for lack of in personam jurisdiction should be without
prejudice.
...
This interpretation clearly is inconsistent with the Court of Appeals ruling in Zicam. The
Court notes that it does not appear that the issue as to whether the dismissal in Zicam should
have been with prejudice, or without prejudice. Therefore, it would appear that that issue was
not addressed in the Zicam matter by the Court of Appeals. However, the interpretation is still
inconsistent with the ruling.
However, the second interpretation of Rule 41(b), A.R.C.P. does comport with the
holding in Zicam. That is, if the order specifies it is dismissed with prejudice, then one does not
proceed to the three exceptions enumerated in the rule. The plain language of the rule states that
“... unless the dismissal order states otherwise. ..” operates as an adjudication on the merits, or
is with prejudice. In other words, if the Court specifies the dismissal is with prejudice, then one
does not need to even look to the rule or the exceptions. The rule only has application when the
Court Order does not specify if it is with prejudice, or without prejudice. This would appear to
be the proper interpretation given the plain language of the rule.
The Court further notes that the form of Order dismissing this matter with prejudice was
submitted by the Defendant at the time of the filing of the Motion. Therefore, the Defendant
had the form of Order and could have filed an Objection to the form of Order either in the
Response to the Motion, or by separate document entitled Objection to form of Order. The
Plaintiff had in excess of five (5) days to object to the form of Order as is required by Rule
58(a)(2), A.R.C.P.
However, it appears to the Court this issue truly is one of fundamental fairness. The
Plaintiff.essentially makes that argument without developing the argument. At paragraph 3 of
the Motion, the Plaintiff argues that if the court dismisses a matter with prejudice, then there is a
ruling on the merits of the case and the Court has essentially asserted jurisdiction. If it dismisses
without prejudice, then in that event, the Plaintiff can seek adjudication of the claim in another
forum. As such, the Court has researched the issue. The Court came across the matter of
Chavez v. State of Indiana for Logansport State Hospital, 122 Ariz. 560, 596 P.2d 698 (1979).
In that matter, the Plaintiff sued a doctor who allegedly released a mental patient committed to

App. 3

the Mental Health Division of the State of Indiana for a crime involving violence and sexual
deviancy. The mental patient was released from the State of Indiana, proceeded to'Arizona and
subsequently murdered the plaintiffs daughter, Chavez. 122 Ariz. at 561. The matter was
dismissed for lack of in personam jurisdiction. The Arizona Supreme Court specified:
Since the dismissal was based on lack of jurisdiction, and not on the merits, the trial
court should have dismissed the claim without prejudice.
Chavez. 122 Ariz. at 562.
As the Supreme Court has provided guidance that when there is a dismissal for lack of in
personam jurisdiction (which was the issue in the Chavez case), the dismissal should be without
prejudice.
However, that does not end the analysis. The Court has to take judicial notice that the
Plaintiff has essentially refiled the same suit against the Defendant, and an agent of the
Defendant in Mohave County Cause No. CV-2018-4044 arguing that there is now in personam
jurisdiction as the agent of Defendant MONDEX was located in the State of Arizona because
the agent of the corporation was speaking at a Holocaust convention in Scottsdale. It is very
apparent to this Court that the Plaintiff somehow envisions dismissal for lack of personal
jurisdiction without prejudice means that the Plaintiff can continue to re-file the case in the State
of Arizona hoping that at some time it may be able to get an agent of the Defendant to be
personally within the confines of the State of Arizona, and somehow there is jurisdiction over
Defendant MONDEX in the State of Arizona. This is entirely in opposition to the whole
purpose and ruling that there is no in personam jurisdiction of Defendant MONDEX, a Canadian
company.
In Zicam. the Court of Appeals specifically outlined the due process requirement in order
to exercise personal jurisdiction of an out of state defendant. The case specified:
Due process is satisfied if (1) the defendants perform some act or consummated
some transaction with Arizona by which they purposefully availed themselves of
the privilege of conducting activities in this state; (2) the claim arises out of or
results from the defendants’ activities related to Arizona; and (3) the exercise of
jurisdiction would be reasonable. [Cite omitted.]
Zicam. 212 Ariz. at 90.

App. 4

This Court has made it perfectly clear that Defendant has not consummated said
transaction within Arizona merely because the Canadian corporation it entered into a contract
with had its principal temporarily located in the State of Arizona. The agreement contemplated
a Canadian company working with a provincial government in Canada to reobtain assets located
in Canada for the other Canadian company. Therefore, the Court cannot make any finding
whatsoever that there was some act or transaction that the Defendant has somehow
interconnected with Arizona such that MONDEX purposefully availed themselves of the
privilege of conducting some activity in the state. In addition, the claim does not arise out of
any acts, or. results or activities of the Defendant in Arizona. All the action of the Defendant
was to occur in Canada. Finally, under the third subsection exercise of jurisdiction simply is
unreasonable.
Therefore, the Plaintiff is unequivocally barred from filing a subsequent lawsuit against
Defendant MONDEX in the State of Arizona. However, this should not prevent the Plaintiff
from proceeding to the dominion or country of Canada to assert any claim there.
IT IS, THEREFORE, ORDERED granting the Motion for Reconsideration in part, but
denying it in part.
IT IS FURTHER ORDERED granting the Motion to the extent that the overall
dismissal shall be without prejudice allowing the Plaintiff to seek redress of any claims it has
against Defendant MONDEX in a court of appropriate jurisdiction.
IT IS FURTHER ORDERED denying the Motion to the extent that the dismissal
without prejudice can be utilized by the Plaintiff to re-file the present lawsuit, or any of the
claims or related claims in the present lawsuit against Defendant MONDEX in the State of
Arizona.
Counsel for the Defendant is directed to submit a revised form of Judgment and Order
dismissing this matter for lack of in personam jurisdiction for the Court to sign and enter.
cc:
ALAN SINGER
4825 HWY 95, #2-120
FT. MOHAVE AZ 86426
Plaintiff

App. 6
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
ALAN SINGER, Plaintiff/Appellant,
v.
MONDEX CORPORATION, Defendant/Appellee.
No. 1 CA-CV18-0346
FILED 5-2-2019
Appeal from the Superior Court in Mohave County
No. B8015CV201804018
The Honorable Charles W. Gurtler, Judge
AFFIRMED
COUNSEL
Alan Singer, Fort Mohave
Plaintiff/Appellant
The Mullan Law Firm, PC, Bullhead City
By Anthony Joseph Mullan, Jr.
Counsel for Defendant/Appellee

App. 7
SINGER v. MONDEX
Decision of the Court

MEMORANDUM DECISION
Presiding Judge David D. Weinzweig delivered the decision of the Court,
in which Judge Kent E. Cattani and Judge James P. Beene joined.

WEINZWEIG, Judge:

111

Plaintiff Alan Singer ("Singer") appeals the superior court's
order granting Defendant Mondex Corporation's ("Mondex") motion to
dismiss for lack of personal jurisdiction. We affirm.
FACTS AND PROCEDURAL BACKGROUND

112

This lawsuit concerns a May 2017 contract between two
Canadian corporations to recover assets located in Canada. The contracting
parties were Mondex (incorporated in Ontario, Canada), Mercury Terrain
& Maison, Inc. (located in Quebec, Canada), and Judith Rottmann
(identified as a Quebec resident). Rottmann was Mercury's President; she
entered the contract in her individual and corporate roles. The contract
directed that Mondex agreed to "help recover [certain assets] situated in the
Province of Quebec, and possibly elsewhere, which were expropriated and
otherwise misappropriated." It was a contingency agreement; Mondex was
promised a 40 percent commission on the assets it recovered.

113
Singer is an Arizona resident and Mercury's consultant. He
was the first to inform Mercury that its assets "had been looted by the
Quebec government and various business entities." Singer was not a party
to the May 2017 contract, but he did sign the contract as a witness to the
transaction, and the contract authorized him to act for Mercury and
Rottmann in the case of her incapacity." Mondex and Singer had a poor
relationship moving forward, and Mondex eventually asked Mercury to
"remove [Singer] from the equation."
1f4

Singer alleges Mondex "overlooked millions of dollars"
which Mercury could have recovered, and that Mercury cancelled the
contract "for non-performance" in November 2017. Although Mondex
apparently found no assets, Singer alleges Mondex still demanded that
Mercury pay a 40 percent commission and thousands of dollars in
attorneys'fees. Singer filed this lawsuit against Mondex in March 2018. He

2

App. 8
SINGER v. MONDEX
Decision of the Court
alleged "Mercury and its owner, Judith Rottmann, assigned their right to
economic damages against Mondex to [him]," but included no proof of the
assignment. He asserted various tort and contract theories against Mondex,
including fraudulent inducement, "breach of promise," breach of fiduciary
duty, racketeering, interference with contract and prospective economic
advantage, negligence, libel and unfair business practices.
Mondex moved to dismiss under Arizona Rule of Civil
Procedure 12(b)(2) for lack of personal jurisdiction. A supporting affidavit
was attached from James Palmer, founder of Mondex, who averred that
Mondex was a Canadian corporation with no current or historical Arizona
presence (no offices, business, advertising or employees). He further swore
that Mondex signed the contract in Canada and had not been served in
Arizona.

1f5

Singer opposed the motion, He asserted that Mondex
implicitly consented to personal jurisdiction in Arizona in the contract
because the contract provided that the "law of Ontario" would apply, and
Ontario law does not include a minimum contacts analysis. Singer thus
argued that the superior court had specific personal jurisdiction over
Mondex. Singer attached his affidavit, his personal bank statement,
newspaper articles and circulation statistics, and a list of emails from
Mondex to Singer and Rottmann. Neither party requested an evidentiary
hearing or oral argument.

116

The superior court granted the motion to dismiss with
V
prejudice. Singer moved for reconsideration on various grounds, including
that dismissal should have been without prejudice. The court granted
Singer's motion only "to the extent that the overall dismissal shall be
without prejudice" and Singer could file his claims "in a court of
appropriate jurisdiction." Singer timely appealed. We have jurisdiction
pursuant to A.R.S. §§ 12-120.21(A)(1) and -2101(A)(3).1
DISCUSSION
Arizona law permits "long-arm" exercise of personal
jurisdiction to the maximum permissible extent under the United States
Constitution. Ariz. R. Civ. P. 4.2(a); Planning Grp. of Scottsdale, L.L.C. v. Lake
Mathews Mineral Props., Ltd., 226 Ariz. 262, 265, f 12 (2011). Although

f8

1
We do not address Singer's argument about the dismissal being with
prejudice because the court later amended its ruling to "dismiss[J the matter
without prejudice."
3

App. 9
SINGER v. MONDEX
Decision of the Court
personal jurisdiction may be general or specific, Planning Grp., 226 Ariz. at
265, f 13, Singer only argues that Arizona courts have specific personal
jurisdiction here. The Constitution permits the exercise of specific personal
jurisdiction over a nonresident defendant that has sufficient "minimum
contacts" with the forum so that "maintenance of the suit does not offend
traditional notions of fair play and substantial justice." Walden v. Fiore, 571
U.S. 277, 283 (2014) (quotation omitted).

1P

Singer asserts — as he did below — that Mondex cannot contest
Arizona jurisdiction because the 2017 contract provides that Canadian law
applies, and Canadian law does not require a minimum contacts analysis
in determining jurisdiction. We disagree that this contractual provision
implicitly creates jurisdiction in Arizona. Moreover, Singer seems to
conflate two different types of clauses: forum-selection and choice-of-law.
See Morgan Bank v. Wilson, 164 Ariz. 535, 537 (App. 1990) ("[Pjarties may
include contractual provisions for resolving controversies in a particular
jurisdiction."). Nor would the fundamental jurisdictional inquiry turn on a
choice-of-law clause. See Hanson v. DencUa, 357 U.S. 235, 254 (1958) (stating
the "issue is personal jurisdiction, not choice of law"). He also argues that
jurisdiction is appropriate if Mondex was served with process in Canada
because service outside of Arizona "has the same effect as if personal
service were accomplished within Arizona." Singer misunderstands
Arizona Rule of Civil Procedure 4.2, which does not negate the threshold
requirement of jurisdiction. See Pegler, 6 Ariz. App. at 340-42.
flO
Arizona may exercise specific personal jurisdiction over a
nonresident defendant when the totality of defendant's contacts with this
state demonstrate (1) purposeful conduct by the defendant targeting the
forum, rather than accidental or casual contacts or those brought about by
the plaintiff's unilateral acts, (2) a nexus between those contacts and the
claim asserted and (3) that exercise of jurisdiction would be reasonable. See
Planning Grp., 226 Ariz. at 266-70, f f 16, 25, 29,37; Williams v. Lakeview Co.,
199 Ariz. 1,4, f 11 (2000).
The "minimum contacts" analysis "focuses on the
nil
relationship among the defendant, the forum, and the litigation." Walden,
571 U.S. at 284-85 (quotation omitted). The "relationship must arise out of
contacts that the defendant himself creates with the forum State," and "the
defendant's suit-related conduct must create a substantial connection with
the forum State." Id. at 284 (emphasis in original) (quotation omitted).

1fl2

To survive a motion to dismiss for lack of personal
jurisdiction, Singer was required to offer "facts establishing a prima facie

4

App. 10
SINGER v. MONDEX
Decision of the Court
showing of jurisdiction." Ariz. Tile, L.L.C. v. Berger, 223 Ariz. 491, 493, f 8
(App. 2010); see also Pegler v. Sullivan, 6 Ariz. App. 338, 339 (1967) ("The
facts, and not the allegations of the complaint, must be the touchstone.").
Only then would the burden "shift[] to the defendant to rebut the showing."
Ariz. Tile, L.L.C,, 223 Ariz. at 493, f 8. We review de novo the superior court's
ruling on personal jurisdiction. Id.
Singer did not provide the superior court with enough facts
to support Arizona's exercise of specific jurisdiction over a Canadian
corporation that contracted with another Canadian corporation and its
owner to locate assets in Canada. He maintains on appeal that specific
jurisdiction was proper because (1) Mondex directed telephone calls and
emails toward Arizona during the negotiation and performance of the
contract; (2) Mondex aimed false advertisements and tortious conduct at
Arizona, injuring him; (3) Mondex entered into the contract in Arizona; (4)
Singer and Mercury performed research services in Arizona under the
contract; (5) Singer and Rottmann signed the contract in Arizona; (6)
Mondex harmed and defamed an Arizona resident in Arizona; (7) and
Mondex's founder visited Scottsdale to speak at the 2018 Genocide
Awareness Week, which Singer characterized as a "marketing ploy."

1113

We are not persuaded. First, Singer's only evidence of the
telephone calls and emails are his affidavit and a list of emails sent by
Mondex's founder to him and Mercury's owner in Arizona. But the actual
communications are not included, only the information in the email header
(sender, recipient, date, time and subject matter line). This index was
inadequate for the superior court to examine the content of the
communications and determine whether (1) they represented purposeful
targeting, rather than responsive or casual contacts, or (2) established a
nexus between the contacts and the asserted claims. The subject matter
lines are not informative, using descriptions such as "RE:" and "telephone
conference re: case." And the emails often indicate Mondex responding to
external inquiries rather than vice versa, Batton v. Tenn. Farmers Mut. Ins.
Co., 153 Ariz. 268, 274 (1987) ("[T]he requisite minimum contacts are not
established when the -plaintiff’s action requires the defendant to send
communications into the forum.") (quotation omitted), or communications
with people who happen to be in Arizona about a contract between
Canadian corporations that never mentions Arizona, see Smith & Wesson
Corp. v. The Wuster, 243 Ariz. 355, 359, f 18 (App. 2017) (finding no specific
jurisdiction where agreement did not show defendant "actively pursued a
contractual relationship in Arizona or that it had any ongoing obligations
in Arizona").

1fl4

5

App. 11
SINGER v. MONDEX
Decision of the Court
Second, Singer provides no evidence that Mondex injured
If15 _
him in Arizona, advertised in Arizona, or targeted Arizona or its residents
with false advertisements or tortious conduct. See In re Marriage of Peck, 242
Ariz. 345,348, If 7 (App. 2017) ("A petitioner cannot establish a prima facie
showing with bare allegations and must come forward with facts,
established by affidavit or otherwise, supporting jurisdiction."). Likewise,
he never explains how Mondex entered into the contract in Arizona and
offers no evidence in support.
1116
Third, specific jurisdiction is not warranted based on facts
arising from Singer's or Mercury's conduct rather than from Mondex's
conduct, including that Singer might have performed research in Arizona
and Rottmann might have signed the contract in Arizona. Walden, 571 U.S.
at 284-85 (minimum contact test focuses on the defendant and contacts he
created with the forum). More generally, the Arizona contacts of Singer
and Mercury are not enough to justify the exercise of specific jurisdiction
over Mondex. Smith & Wesson Corp., 243 Ariz. at 359, U 19 (plaintiff's
contacts with the forum "is not relevant to whether personal jurisdiction
can be exercised over a non-resident defendant").

1fl7

And last, the record does not indicate the remarks of
Mondex's founder at a 2018 Scottsdale conference were connected to this
lawsuit or the claims asserted herein. See In re Consol. Zicam Prod. Liab.
Cases, 212 Ariz. 85, 90, If 11 (App. 2006) ("[T]he plaintiffs' cause of action
must arise out of or relate to the defendants' contacts with Arizona."). At
most, the record includes the sort of "random, fortuitous, or attenuated
contacts" deemed insufficient to warrant specific personal jurisdiction.
Walden, 571 U.S. at 286 (2014); see also Bristol-Myers Squibb Co. v. Cal. Super.
Ct., 137 S. Ct. 1773, 1781 (2017) (specific jurisdiction requires a connection
between the controversy and forum, and "[w]hen there is no such
connection, specific jurisdiction is lacking regardless of the extent of a
defendant's unconnected activities in the State"). We therefore conclude
the superior court correctly granted Mondex's motion to dismiss for lack of
personal jurisdiction.
H18
Finally, Mondex requests attorneys' fees incurred on appeal
under A.R.S. § 12-341.01 (A) and A.R.S. § 12-349. We deny its request for
fees under § 12-349 because Singer did not bring this action without
substantial justification or to harass Mondex. We also deny, in our
discretion, an award of attorneys' fees under § 12-341.01(A). Mondex is
awarded its taxable costs upon compliance with ARCAP 21.

6

App. 12
SINGER v. MONDEX
Decision of the Court
CONCLUSION
fl9

We affirm.

AMY M. WOOD • Clerk of the Court
FILED: AA

7

App. 13

_<<$*•.....

rk *%&.'/&
Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

December 6, 2019

RE:

ALAN SINGER v MONDEX CORPORATION
Arizona Supreme Court No. CV-19-0159-PR
Court of Appeals, Division One No. 1 CA-CV 18-0346
Mohave County Superior Court No. B8015CV201804018

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on December 5, 2019, in regard to the abovereferenced cause:
ORDERED: Plaintiff/Appellant's Petition for Review = DENIED.
FURTHER ORDERED: Request for Attorneys' Fees (Appellee Mondex
Corporation) = GRANTED.
A panel composed of Chief Justice Robert Brutinel, Vice Chief
Justice Timmer, Justice Gould and Justice Montgomery
participated in the determination of this matter.
Janet Johnson, Clerk
TO:
Alan Singer
Anthony Joseph Mullan Jr.
Amy M Wood
adc

App. 14

SUPREME COURT OF ARIZONA
ALAN SiNGER,

)

Arizona Supreme Court
-No. CV-19-0159-PR

Plaintiff/Appellant, )
v.

Court of Appeals
Division One
No. 1 CA-CV 18-0346

)

MONDEX CORPORATION,
)
Defendant/Appellee. )
)

Mohave County
Superior Court
No. B8015CV201804018

)

FILED 02/11/2020
ORDER

The Court has received and considered "Appellee's Statement of
Taxable

Costs

and

Attorney's

Fees"

and

"Plaintiff/Appellant's

Response and Opposition to Defendant/Appellee's Statement of Taxable
Costs and Attorney's Fees."

After consideration of these pleadings

and pursuant to Rule 21, Rules of Civil Appellate Procedure and this
Court's minute letter dated December 6, 2019,
IT IS ORDERED denying Defendant/Appellee's request for $4971.93
in attorneys' fees and costs in the trial court for failure to comply
with Arizona Rule of Civil Procedure 54(f) and 54(g);
IT IS FURTHER ORDERED denying Defendant/Appellee's request for
$5036.03

in attorneys'

fees

in the

court

of

appeals because that

court has exercised its discretion to deny such fees; costs in that
court have already been awarded
Ariz. 442, 444 (1980);

See Autenreith

v.

Norville,

127

App. 15
Arizona Supreme Court No. CV-19-0159-PR
Page 2 of 2
IT
expenses

IS

FURTHER

ORDERED

awarding

incurred in this Court,

to

attorneys'

$2145.00 and costs in the amount of $165.42,

Defendant/Appellee

for

fees in the amount of
for a total award of

$2310.42.
DATED this 11th day of February, 2020.

/s/
ROBERT BRUTINEL
Chief Justice
TO:
Alan Singer
Anthony Joseph Mullan Jr
Amy M Wood
pm

Justice Beene did not participate in the determination of this
matter.

App. 16

AGREEMENT
AGREEMENT, made as of the date set forth below, between MONDEX CORPORATION, with
offices at 95 St. Clair Avenue West, Suite 904, Toronto, Canada M4V 1N6 ("Mondex”); and
JUDITH ROTTMANN on her own behalf, and on behalf of MERCURY TERRAIN & MAISON
INC., 250-4625 Boul. Cote-Vertu, Saint-Laurent, Quebec, Canada, H4S1C8, Numero
d'entreprise du Quebec (NEQ) 1164467327 (the "Client”)
WHEREAS, Mondex has information concerning assets of value (“Assets”) which the Client is or
may be entitled to receive;
AND WHEREAS the Client has requested Mondex, and Mondex has agreed, to help recover
these Assets situated in the Province of Quebec, and possibly elsewhere, which were
expropriated or otherwise misappropriated;
NOW THEREFORE, in consideration of the mutual premises and covenants contained herein
and for other good and valuable consideration, the receipt and sufficiency of which is
acknowledged, it is hereby agreed as follows:
1.
The Client warrants that all Assets subject to this Agreement belong solely to Mercury
Terrain & Maison Inc., and are not held in common with any other person(s) or entities.
2.
The Client will cooperate fully with Mondex in fulfilling the requirements of the recovery,
including the execution and delivery of instruments necessary to document or pursue the
Client’s claim, and the Client shall provide all required research and identification concerning the
Assets that are subject of this Agreement. The Client warrants that all research regarding the
unclaimed Assets has been done by her, and Mondex can rely on such research and
information as provided by the Client. Such research shall exclude legal research which will be
provided by Mondex and/or by Fasken Martineau DuMoulin.
3.
The Client has requested that in the case of her incapacity, that ALAN SINGER be
authorized to act on the Client’s behalf, and the Client will provide all relevant contact
information for Alan Singer to Mondex.
4.
The Client instructs and authorizes Mondex to attempt to recover the Assets on behalf of
and for the benefit of the Client; and Mondex is authorized to do any and all lawful acts required
for said recovery as the Client could do if acting independently.
5.
Mondex and the Client have agreed to retain Antoine Aylwin of the law firm Fasken
Martineau DuMoulin LLP in Montreal, Quebec, to assist in making claims for the recovery of the
Assets, or compensation for the same. Mondex will be responsible for the legal fees due to
Fasken Martineau DuMoulin.
6.
Mondex will be deemed to have helped the Client with the recovery of the said Assets by
disclosing information about the Assets to the Client and discharging its duty to attempt to
recover the Assets. Mondex will be entitled to its commission and costs upon recovery of such
Assets by the Client or by a third party under the instructions of the Client.

App. 17

7.
If the legal fees exceed 20% of the value of the recovered Assets, the legal fees will be
deducted first from the recovered value of the Assets, with the balance divided between the
Client and Mondex as per the terms of this Agreement.
8.
As its compensation, the Client agrees to pay Mondex a sum equivalent to forty percent
(40%) of the gross value of the Assets recovered by the Client, based on the Client’s assertion
that the unclaimed Assets are valued at between $2 million and $4 million or more. This fee
shall be inclusive of expenses such as legal costs and other disbursements.
9.
Mondex shall be authorized to receive the Assets or compensation for the Assets and
after deducting its fee, the balance shall be paid to the Client.
10.
Mondex will use its best efforts to recover the Assets and shall advance the full amount
of costs and expenses required to effect the recovery of the Assets. In the event that no
recovery takes place, Mondex shall bear all such costs and expenses. In the event that the
Assets recovered are valued at less than the amount of costs, expenses and disbursements,
Mondex shall bear all such costs.
11.
Mondex shall have the discretion to decline to proceed with litigation or other legal
proceedings if the prospects of succeeding in recovering the Assets or compensation for the
Assets appears not to be feasible.
12.
This agreement shall be binding on Mondex, its successors and assigns, and on the
Client’s heirs, successors and assigns, and shall be construed under the laws of the Province of
Ontario, Canada.
IN WITNESS WHEREOF, the parties hereto have set their hands and seals hereunto this
f
day of
,20XT

/f_. ~

--

Witness' Signature (please sign above)

/Salient’s Signature (please sign above)
I (j£
/, CLo^
5t*+

Witness' Name (please print above)

y f/>5^^£t]
/d r~f-/^

{IQ'S

Client's Telephone & Email
(please print above)
f&Z’f bo« I. Cote

fi

rk 2£PO

J

Witness’ Address (please print above)

Client's Address (please print above)

MtiscAsy Jem'*
Client’s Occupation (please print above)

'

App. IB

IscMONDEX CORPORATION accepted as above’

~A
- International Consultant.

File #7042

